MAY 1, 2012
  AUDIT REPORT




                                                      OFFICE OF AUDITS




     NASA’S EFFORTS TO IDENTIFY, REPORT, AND
         RECAPTURE IMPROPER PAYMENTS




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-12-015 (ASSIGNMENT NO. A-11-020-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

AFR          Agency Financial Report
ARMD         Aeronautics Research Mission Directorate
Caltech      California Institute of Technology
CFO          Chief Financial Officer
DCAA         Defense Contract Audit Agency
FAR          Federal Acquisition Regulation
FY           Fiscal Year
GAO          Government Accountability Office
HST          Hubble Space Telescope
IPERA        Improper Payments Elimination and Recovery Act
IPIA         Improper Payments Information Act
JPL          Jet Propulsion Laboratory
JWST         James Webb Space Telescope
PAR          Performance and Accountability Report
OCFO         Office of the Chief Financial Officer
OIG          Office of Inspector General
OMB          Office of Management and Budget
RMB          Reimbursable
SOFIA        Stratospheric Observatory for Infrared Astronomy


                                                                REPORT NO. IG-12-015
MAY 1, 2012




                                                                                          OVERVIEW

        NASA’S EFFORTS TO IDENTIFY, REPORT, AND RECAPTURE
                       IMPROPER PAYMENTS

                                                                                            The Issue

  Each year, the Federal Government wastes billions of taxpayer dollars on improper
  payments to individuals, organizations, and contractors. An improper payment is any
  payment that should not have been made; was made in an incorrect amount, to an
  ineligible recipient, for ineligible goods or services, or for goods or services not received;
  was duplicative; or did not reflect credit for applicable discounts. 1 Improper payments
  may result from inadequate recordkeeping, inaccurate eligibility determinations,
  inadvertent processing errors, lack of timely and reliable information to confirm payment
  accuracy, or fraud.

  To combat improper payments, Congress passed the Improper Payments Information Act
  (IPIA) of 2002 and the Improper Payments Elimination and Recovery Act (IPERA) of
  2010. These Acts require agencies to identify and report on programs or activities that
  are susceptible to significant improper payments by conducting a risk assessment, testing
  a sample of transactions, and determining the estimated amount of improper payments.
  Agencies are required to report to the President and Congress in their annual Performance
  and Accountability Report (PAR) or Agency Financial Report (AFR) the amount of
  estimated improper payments, along with steps taken and actions planned to reduce those
  payments. Since fiscal year (FY) 2006, NASA has consistently reported that it has
  identified no programs with significant improper payments.

  IPIA also requires agencies to conduct payment recapture audits to review and analyze
  their accounting and financial records to identify overpayments. In addition, IPERA
  requires Inspectors General to determine whether their respective agencies comply with
  IPIA requirements, evaluate the accuracy and completeness of agency reporting, and
  evaluate agency performance in reducing and recapturing improper payments. The
  Office of Management and Budget (OMB) has issued guidance regarding agency
  compliance with IPIA. 2

  The Quality Assurance Division of the NASA Office of the Chief Financial Officer
  (OCFO) is responsible for ensuring that NASA complies with IPIA. The OCFO employs
  two contractors to assist the Agency with IPIA compliance: one to conduct improper
  1
      Office of Management and Budget Circular No. A-123, “Management’s Responsibility for Internal
      Control,” Appendix C.
  2
      From this point forward, the term “IPIA” will be used to refer to IPIA as amended by IPERA.



REPORT NO. IG-12-015
                                                                                                       OVERVIEW



     payments testing (IPIA contractor) and one to conduct recapture audits (recapture
     auditor).

     The first step in determining whether an agency’s programs are susceptible to significant
     improper payments is to identify its programs. For the 2011 reporting period, NASA
     began this process by querying its financial system, SAP, for all FY 2010 disbursements.
     NASA provided this information to the IPIA contractor who segregated the data by
     mission, ultimately identifying 132 programs within seven mission areas. 3 With the
     Quality Assurance Division’s approval, the contractor removed the two programs under
     the Office of Inspector General (OIG) mission area from this list and combined 32
     programs into a single program labeled Institutions and Management, bringing the list to
     a total of 99 programs. All programs with more than $80 million in disbursements during
     the fiscal year would be subject to further assessment. 4 NASA reported that 34 programs
     met this threshold.

     The Agency reported in the PAR that it had conducted a risk assessment on these 34
     programs, which had total disbursements of $19.1 billion. Of these programs, NASA
     identified 7 as potentially susceptible to significant improper payments: Constellation
     Systems, Institutions and Management, International Space Station, Mars Exploration,
     Reimbursable (RMB) – Science Mission Directorate Programmatic, Space
     Communications and Navigation, and the Space Shuttle Program. The combined
     disbursements subject to testing for these 7 programs totaled approximately $5.1 billion.
     Testing of these programs resulted in the discovery of one improper payment, which was
     used to statistically project $1.5 million of improper payments made by NASA in
     FY 2010. This amount did not meet the threshold established in the OMB guidance as
     significant and, as a result, the Agency reported in its FY 2011 PAR that no programs
     were susceptible to significant improper payments. The Agency also reported that it had
     recovered no improper payments as a result of the recapture auditor’s efforts.

     In this audit, we examined whether NASA was identifying, reporting on, and reducing
     improper payments in accordance with IPIA. Specifically, we reviewed the IPIA section
     of the PAR and supporting documentation to ensure NASA’s methodology and
     determinations were sound, accurate, and complete, and evaluated the Agency’s
     performance and methodology for identifying, reducing, and recapturing improper
     payments.




     3
         Aeronautics Research Mission Directorate, Cross Agency Support Programs, Exploration Systems
         Mission Directorate, Institutions and Management, Office of Inspector General, Science Mission
         Directorate, and Space Operations Mission Directorate.
     4
         This $80 million threshold assumes an improper payment error rate of 12.5 percent, which could
         potentially lead to $10 million in improper payments, which OMB guidance established as the threshold
         for significant improper payments.



ii                                                                                       REPORT NO. IG-12-015
OVERVIEW



                                                                                   Results

  NASA has limited the scope of its IPIA efforts, which in turn has minimized the
  Agency’s ability to identify, report on, and recapture improper payments. Although the
  Agency completed the steps required by IPIA and reported the results of its review in its
  FY 2011 PAR, NASA is not fully compliant with the requirements of the Act.
  Specifically, with NASA’s approval, the IPIA contractor interpreted and manipulated
  disbursement data from the Agency’s accounting system to identify and group its
  programs and activities. However, some programs and activities were improperly
  grouped, potentially masking improper payment rates, while other programs were
  excluded from the risk assessment altogether. Correctly identifying the Agency’s
  programs and activities is the critical first step in performing a program-specific risk
  assessment. Because NASA did not properly identify all programs and activities, the
  Agency did not meet IPIA requirements to conduct a program-specific risk assessment
  for each of the Agency’s programs and activities.

  We also have concerns that the Agency’s method for evaluating risk is inconsistent
  across various programs and activities and that NASA places too heavy a reliance on the
  IPIA contractor to evaluate the level of risk in the Agency’s programs. Further, we
  question NASA’s decision to completely exclude payments to and by the Jet Propulsion
  Laboratory (JPL) from its IPIA review and to exclude grants from its transaction testing.
  We also identified several errors and omissions in the IPIA section of the PAR that lead
  us to question whether NASA’s reporting efforts are accurate and complete and whether
  NASA’s oversight and review of the contractor’s work is adequate. Finally, while NASA
  conducted recapture audits, the audits were limited to 26 percent of the Agency’s total
  disbursements and NASA did not target known high-risk programs or report on improper
  payments identified through methods other than recapture audits. As a result, the Agency
  may be missing an opportunity to identify and recover a larger population of improper
  payments.

  Defining Programs for Program-Specific Risk Assessment. To comply with IPIA,
  agencies must conduct a program-specific risk assessment for each program or activity
  they administer. Moreover, OMB guidance states that for risk assessment purposes
  agencies must not group programs or activities in ways that potentially mask significant
  improper payments. We found that in defining its programs and activities NASA did not
  comply with this guidance and therefore failed to conduct a program-specific risk
  assessment of all programs and activities as required by IPIA. Specifically, we identified
  instances where program data was combined and other instances where programs should
  have been combined but were not. For example, the IPIA contractor grouped 32
  programs such as Information Technology Services, the NASA Shared Services Center,
  and Institutional Construction of Facilities into one large program labeled Institutions and
  Management. The total disbursements for these 32 programs was $3.7 billion, the largest
  disbursement total of any program subjected to risk assessment. However, by combining
  programs in this way NASA tested transactions from only 13 of the 32 programs,
  representing only $773.8 million in disbursements.


REPORT NO. IG-12-015                                                                             iii
                                                                                            OVERVIEW



     Additionally, in other instances programs that might have been deemed high risk if
     considered in isolation could have been masked within larger programs in which the
     overall risk of improper payments was deemed low. For example, the IPIA contractor
     combined the James Webb Space Telescope (JWST) with other projects under the
     heading Cosmic Origins and determined that the overall program risk for JWST was low.
     As a result, JWST – a project with a total life-cycle cost of $8.8 billion and $390 million
     in FY 2010 disbursements that has been subject to scrutiny by Congress for cost overruns
     and schedule slippage – was not individually assessed for risk or included in NASA’s
     improper payment testing.

     We also identified programs that were inappropriately excluded from IPIA testing.
     Specifically, we identified 13 sets of programs within SAP that had identical or similar
     naming conventions, such as RMB-Aeronautics Research Mission Directorate (ARMD)
     Program Programmatic and RMB-ARMD Programmatic, that should have been
     combined. Had the IPIA contractor combined these sets of programs, they would have
     identified three additional programs that exceeded NASA’s $80 million materiality
     threshold and therefore would have been subject to a program-specific risk assessment.
     In another instance, the IPIA contractor identified the Safety and Mission Success
     program as having disbursed $198 million in FY 2010 but did not include the program in
     the risk assessment.

     Inconsistent Execution of the Risk Assessment. We are concerned that the Agency’s
     method for evaluating the level of risk is inconsistent across programs. Further, NASA’s
     reliance on the IPIA contractor to conduct the risk assessment may not lead to an accurate
     assessment of the level of risk in the Agency’s programs. During our review of the risk
     rating scores assigned to each of the programs, we noted that not all program managers
     provided the necessary information about their programs. The IPIA contractor therefore
     made determinations of risk in the absence of complete program information. In
     addition, we found inconsistencies in how the IPIA contractor assigned ratings to various
     risk factors. Materiality is the most heavily weighted stand-alone factor in the risk
     assessment (40 percent of total); however, the IPIA contractor also considered materiality
     in its assignment of the other risk factors such as programmatic risk and human capital
     risk prior to assigning an overall risk rating. This practice increased the potential that risk
     was not accurately identified or appropriately and consistently measured across NASA’s
     programs and activities. Overall, we believe that risk ratings may have been inaccurately
     assigned as a result of incomplete data provided by Agency program managers and the
     subjective assignment of risk by the IPIA contractor.

     Exclusion of NASA’s Contract with the Jet Propulsion Laboratory. JPL is a
     federally funded research and development center operated for NASA by the California
     Institute of Technology (Caltech). JPL received $1.6 billion from NASA in FY 2010 and
     is the second largest recipient of Agency procurement funds after private businesses.
     However, NASA excluded payments made to and by JPL from its IPIA review because it
     is the Agency’s position that the payments NASA makes to JPL are not at risk and that
     payments made by JPL to its subcontractors are not subject to IPIA. However, we



iv                                                                             REPORT NO. IG-12-015
OVERVIEW



  believe that payments made to and by JPL meet OMB’s definition of payment, which
  includes disbursements to and by a governmental or other organization administering a
  Federal program or activity. At a minimum, to comply with IPIA NASA should assess
  the risk of improper payments to and by JPL consistent with its assessment of other
  Agency programs.

  Exclusion of Grants from Testing. From FY 2006 through FY 2010, NASA awarded
  approximately $3 billion in grants to external entities with approximately $570 million
  awarded in FY 2010 alone. Nevertheless, NASA excluded grants from its improper
  payment testing and reporting. The Quality Assurance Division stated that this decision
  was based on prior results that indicated testing of first-line grant payments was not cost-
  effective, coupled with a lack of clear guidance from OMB as to how to conduct testing
  beyond the primary recipient. However, OMB calls for agencies to include grants as part
  of their improper payment review and the IPIA contractor recommended in its FY 2011
  final report that NASA consider including grants in future IPIA testing programs.
  Moreover, other Federal agencies such as the Department of Justice and the Department
  of Health and Human Services included grants in their IPIA reviews. By not including
  grants, NASA has excluded from its IPIA testing disbursements in programs the NASA
  OIG has previously identified as having internal control weaknesses. 5

  Evaluation of Improper Payment Testing and Estimating. IPIA requires agencies to
  estimate the annual amount of improper payments for each program and activity
  identified as susceptible to significant improper payments and report the results in the
  PAR. NASA identified nine programs as susceptible but only reported improper
  payment estimates for seven of these programs. OMB guidance allows agencies to
  request relief from this reporting requirement; however, NASA did not provide evidence
  that such a request was made. By not testing and using the results to estimate improper
  payment rates for all nine programs and activities identified as high risk, NASA did not
  meet IPIA requirements for compliance.

  NASA also reported in the PAR that the total payments related to these seven programs
  was approximately $5.1 billion. However, the FY 2010 disbursements from these seven
  programs actually totaled $13.4 billion. NASA and the IPIA contractor stated that the
  $5.1 billion represents only the disbursements related to contracts, purchase cards, and
  travel, the only types of transactions NASA tested. According to the IPIA contractor, the
  remaining $8.3 billion (62 percent) was excluded from testing because it related to grants
  ($668 million) and payroll ($765 million). However, as discussed above grants should
  have been included in NASA’s IPIA testing. Furthermore, neither NASA nor the
  contractor could tell why the remaining $6.9 billion was excluded. Therefore, we have
  no assurance that all eligible disbursements made in the seven programs were subject to
  testing. Additionally, we determined that the total amount of disbursement transactions
  tested for the Institutions and Management program was $803 million instead of the
  $3.7 billion identified in the risk assessment. This occurred because five programs within

  5
      NASA OIG, “NASA’s Grant Administration and Management” (IG-11-026, September 12, 2011).



REPORT NO. IG-12-015                                                                             v
                                                                                         OVERVIEW



     Institutions and Management that accounted for 81 percent of the disbursements were not
     included in NASA’s IPIA testing. We believe these exclusions could be misleading and
     are not a transparent representation of the work conducted.

     PAR Reporting. We noted several errors and omissions in NASA’s FY 2011 PAR that
     affect the accuracy and completeness of the information reported. For instance, the PAR
     states that NASA’s updated risk assessment identified 34 programs with a total of
     $19.1 billion in FY 2010 disbursements. However, we determined that NASA actually
     identified 33 programs with $18.9 billion in disbursements.

     Further, OMB guidance requires that agencies with programs or activities susceptible to
     significant improper payments include a table in the PAR that specifically lists all risk
     susceptible programs, the current year and prior years’ improper payment dollars and
     percentages, designation of over- and underpayments, and future year outlay estimates.
     However, the table in NASA’s PAR only includes the one program the Agency identified
     as containing an improper payment and not the other programs identified as susceptible
     to risk or the other required information. Further, we noted inaccurate results from prior
     years’ testing in the PAR table labeled “NASA Programs Identified as Susceptible to
     Improper Payments.” In another instance, NASA reported that 1,788 transactions were
     selected for testing when the supporting documentation showed that only 1,426 sample
     transactions had been tested. The PAR did not note that transactions were omitted from
     testing or why the omission occurred.

     OMB guidance also requires agencies to provide information summarizing their recapture
     audit efforts in five different tables. In NASA’s PAR, one of the five tables was shown
     with either a not applicable (N/A) or $0 response. The Quality Assurance Division stated
     that the information for this table was not readily available or identifiable because it was
     new to the PAR and the Division had limited time to gather the data. Although the
     information reported in this table indicates to the reader that work was performed and the
     outcome was either not applicable or that no funds were recaptured, the Quality
     Assurance Division’s response does not support this view. Based on the errors and
     omissions noted in the IPIA section of the PAR, we question the level of NASA’s
     oversight of the IPIA process, including the rigor with which NASA reviewed the IPIA
     contractor’s report and supporting documentation.

     Scope of NASA’s Recapture Audits Efforts Limited. The Agency’s current recapture
     methodology may not identify as many improper payments as reasonably possible
     because NASA limits its annual recapture audits to fixed-price contract payments, does
     not target known high-risk programs, and does not report on improper payments
     identified outside of payment recapture audits. NASA policy states that all classes of
     contracts and contract payments should be considered for recapture audits. However,
     OMB guidance allows agencies to exclude program and activity payments from recapture
     audit activities if the agency determines that payment recapture audits are not a cost-
     effective method for identifying and recapturing improper payments. NASA made such a
     determination with regard to cost-type contracts and accordingly limited its recapture
     auditing efforts to fixed-price contracts. In the PAR, NASA stated that the Agency


vi                                                                          REPORT NO. IG-12-015
OVERVIEW



  employs the Defense Contract Audit Agency (DCAA) to perform auditing procedures on
  cost-type contracts and therefore excludes these contracts from recapture audits.
  However, DCAA policy specifically states that DCAA audits generally do not cover
  recapture audit activities. Further, OMB makes a distinction between recapture and post-
  award audits. 6 By limiting recapture audits to fixed-price contracts, NASA also excluded
  payments made pursuant to grants and cooperative agreements from the universe of
  payments subject to audit.

  Additionally, NASA did not report on improper payments identified and recovered
  through sources other than payment recapture audits as required by IPIA. Further, IPIA
  states that the head of the agency shall give priority to the most recent payments and to
  payments made in any program or activity identified as being susceptible to significant
  improper payments. However, NASA did not instruct the recapture auditor specifically
  to target known high-risk programs. While some fixed-price contract payments may fall
  within high-risk programs, other types of payments in high-risk programs, such as grants,
  were excluded. We also found no evidence that NASA prioritized payments associated
  with programs or activities susceptible to improper payments. Because of the limits
  NASA places on its recapture audits, the Agency may be missing an opportunity to
  identify, recover, and report on a larger population of improper payments.

                                                                            Management Action

  We made nine recommendations to improve NASA’s improper payment identification,
  reporting, and recapture efforts. We recommended that the Chief Financial Officer
  (CFO) develop a methodology to identify Agency programs and activities that does not
  potentially mask improper payments and coordinate with the Mission Directorates to
  require that NASA program managers provide updated and accurate program information
  to allow for the performance of a comprehensive risk assessment. We also recommended
  that the CFO assess the risk of improper payments to and by JPL consistent with the
  methodology used to assess other NASA programs. The CFO should also increase the
  scope of the Agency’s IPIA testing to include grants and report improper payment
  estimates for all programs identified as susceptible to improper payments or request relief
  from this reporting requirement. Additionally, the CFO should evaluate the current
  process for reviewing the IPIA contractor’s results and develop a process to ensure that
  information reported in the PAR is correct and based on appropriate supporting
  documentation. Further, the CFO should include all required tables and data in the IPIA
  section of the PAR. Lastly, we recommended that the CFO analyze and document the
  feasibility of expanding the scope of the Agency’s recapture audits beyond fixed-price
  contracts to include other payments, such as grants and cooperative agreements, and
  reconsider the exclusion of cost-type contracts and document any determinations made.



  6
      DCAA classifies incurred cost audits as post-award contract audits.



REPORT NO. IG-12-015                                                                            vii
                                                                                         OVERVIEW



       In response to a draft of our report, the CFO concurred with six of our recommendations
       and said she would address them by increasing the scope of the Agency’s IPIA testing to
       include grants; reporting improper payment estimates for all programs determined to be
       susceptible or requesting relief from this requirement; developing a process for reviewing
       the IPIA contractor’s results to ensure accuracy; including all required tables in the PAR
       with detailed information clearly explaining the data to the reader; and analyzing and
       documenting the feasibility of expanding the scope of recapture audits beyond fixed-price
       contracts to include other payments. The CFO also agreed to reconsider the feasibility of
       including cost-type contracts in the Agency’s recapture audit efforts and make a
       determination for implementation in FY 2013. We consider the CFO’s proposed actions
       responsive and will close these recommendations upon completion and verification of the
       proposed corrective actions.

       The CFO partially concurred with our recommendations to develop a methodology to
       identify programs and activities that does not inappropriately mask improper payments,
       to coordinate with the Mission Directorates to require that NASA program managers
       provide updated and accurate program information for risk assessment purposes, and to
       assess the risk of improper payments by and to JPL consistent with the methodology used
       for other NASA programs.

       With regard to the first recommendation, the CFO does not agree that NASA’s current
       methodology masks improper payments, noting that the testing of 5,488 transactions and
       802 contracts over the last 3 years uncovered only 5 improper payments. She also stated
       that the centralized nature of NASA’s procurement and payment activities mitigates the
       risk of improper payments across the Agency. Nevertheless, she stated that NASA is
       considering an alternative approach by which it would group its activities by payment
       type (e.g., vendor payments, purchase and travel card reimbursements) and that the
       Agency would analyze the pros and cons of this approach and make a determination for
       execution by FY 2013. For the reasons stated in our report, we continue to believe that
       NASA’s improper payment testing was flawed. However, because the Agency has
       agreed to consider changes to its approach, we are resolving this recommendation and
       will close it once we have determined that the Agency has adopted an approach that
       addresses our concerns.

       With regard to the second recommendation, the CFO agreed that better communication
       could improve the gathering of program-specific data and stated that as part of its
       assessment of an alternative improper payment testing methodology NASA will consider
       the extent to which program information impacts the risk factors and risk conditions
       integral to the Agency’s risk assessment methodology. She stated that the Agency would
       analyze the pros and cons of refining its approach and make a determination for
       execution by FY 2013. Accordingly, the recommendation is resolved and will be closed
       when we verify that the Agency’s actions address our concerns.

       With regard to our recommendation concerning JPL, the CFO agreed to include
       payments made by NASA to JPL in the Agency’s improper payment program by the end
       of FY 2012. However, she did not agree to include payments made by JPL to


viii                                                                         REPORT NO. IG-12-015
OVERVIEW



  subcontractors. The CFO asserts that IPIA applies to entities that “administer Federal
  programs” and that this means managing an ongoing process of distributing Federal
  monies, developing or enforcing regulations, conducting inspections, or other
  programmatic activities. She further asserts that JPL conducts none of these activities
  and is simply a Federal contractor.

  We disagree that there is a sound basis under IPIA for distinguishing between payments
  made to JPL and payments made by JPL to its subcontractors. Under IPIA, payments
  made to a contractor and payments made by a contractor are equally subject to review so
  long as they are made in furtherance of the administration of a Federal program. By
  virtue of its contract to manage JPL, Caltech is one of NASA’s largest contractors and
  plays a vital role in administering NASA’s science and space exploration programs.
  Accordingly, in our view JPL conducts “programmatic activity” that qualifies even under
  the CFO’s definition of IPIA’s scope. Because we continue to believe that NASA should
  assess the risk that improper payments are being made from the more than $1 billion of
  Federal money awarded annually to JPL, this recommendation is unresolved.

  Management’s comments on the recommendations are reprinted in Appendix B. The
  CFO separately provided technical comments on the draft, which we incorporated as
  appropriate.




REPORT NO. IG-12-015                                                                        ix
MAY 1, 2012




                                                         CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 5

  RESULTS
      NASA Used Flawed Methodology to Identify Programs
        Potentially Susceptible to Improper Payments ____________ 6
      NASA’s Testing, Estimating, and Reporting of Improper
        Payments _______________________________________ 13
      Recapture Audit Efforts Could Be Improved________________ 19

  APPENDIX A
      Scope and Methodology _______________________________ 23
      Review of Internal Controls ____________________________ 24
      Prior Coverage ______________________________________ 24

  APPENDIX B
      Management Comments ______________________________ 26

  APPENDIX C
      Report Distribution ___________________________________ 30




REPORT NO. IG-12-015
MAY 1, 2012




                                                                                     INTRODUCTION


Background

  The Improper Payments Information Act (IPIA) was passed in November 2002 to
  enhance the accuracy and integrity of Federal payments. IPIA requires executive branch
  agency heads to review all agency programs and activities annually and identify those
  that may be susceptible to significant improper payments. For each program and activity
  identified as susceptible, agencies must estimate the annual amount of improper
  payments and report those estimates to Congress, together with their actions to reduce
  such payments for any program in which the estimate exceeds $10 million. The Act also
  requires the Director of the Office of Management and Budget (OMB) to prescribe
  implementing guidance for agencies.

  Fiscal year (FY) 2011 marked the eighth year of IPIA implementation and the first year
  of implementation of the Improper Payments Elimination and Recovery Act of 2010
  (IPERA). IPERA amends IPIA by expanding on the requirements for identifying,
  estimating, and reporting on programs and activities susceptible to significant improper
  payments. IPERA also includes a requirement that agencies conduct recapture audits, if
  cost-effective, for each program and activity with at least $1 million in annual program
  outlays. 7

  According to OMB guidance, compliance with IPIA means that the agency has:

         •   published a Performance and Accountability Report (PAR) or Agency Financial
             Report (AFR) for the most recent fiscal year and posted that report and any
             accompanying materials required by OMB on the agency website;

         •   conducted a program-specific risk assessment for each program or activity;

         •   published improper payment estimates for all programs and activities identified as
             “susceptible” to significant improper payments; 8

         •   published programmatic corrective action plans in the PAR or AFR as required;

         •   published, and has met, annual reduction targets for each program assessed to be
             at risk and measured for improper payments;


  7
      From this point forward the term “IPIA” will be used to refer to IPIA as amended by IPERA.
  8
      “Significant improper payments” are (1) gross annual improper payments in a program exceeding both
      2.5 percent of program outlays and $10 million of all program or activity payments during the fiscal year
      reported or (2) $100 million regardless of the improper payment error rate.



REPORT NO. IG-12-015                                                                                              1
                                                                                             INTRODUCTION



           •   reported a gross improper payment rate of less than 10 percent for each program
               and activity for which an improper payment estimate was obtained and published
               in the PAR or AFR; and

           •   reported information on its efforts to recapture improper payments.

    The IPIA and OMB require Inspectors General to determine annually whether their
    respective agencies comply with key statutory requirements and evaluate the accuracy
    and completeness of their agencies’ reporting and performance in reducing and
    recapturing improper payments.

    Office of Management and Budget Guidance. OMB plays a key role in the
    Government’s efforts to combat improper payments by establishing guidance for Federal
    agencies for reporting on, reducing, and recovering such payments. 9 As defined by
    OMB, an improper payment is “any payment that should not have been made or that was
    made in an incorrect amount under statutory, contractual, administrative, or other legally
    applicable requirements.” 10 Improper payments may take the form of payments to an
    ineligible recipient or for ineligible goods or services, duplicate payments, or payments in
    the incorrect amount and may result from inadequate recordkeeping, inaccurate eligibility
    determinations, inadvertent processing errors, lack of timely and reliable information to
    confirm payment accuracy, or fraud.

    The first step in identifying improper payments is for the agency to define its population
    of programs. OMB defines a program as all activities or sets of activities recognized as
    programs by the public, OMB, or Congress, as well as those that entail program
    management or policy direction. This definition includes but is not limited to all grants,
    including competitive grant programs and block/formula grant programs; non-
    competitive grants such as single-source awards; regulatory activities; research and
    development activities; direct Federal programs; all types of procurements (including
    capital assets and service acquisition); and credit programs. OMB’s definition of a
    program or activity also includes all activities engaged in by the agency in support of its
    programs. After consultation with OMB, agencies are authorized to determine the
    grouping of programs that most clearly identifies and reports improper payments.
    However, OMB cautions that agencies must avoid grouping programs and activities in
    ways that may mask significant improper payments. For transparency purposes, the basis
    for the agency’s groupings must be reported in its annual PAR or AFR.

    Once an agency defines its population of programs, it must determine which of those
    programs are susceptible to significant improper payments. OMB requires that agencies

    9
        OMB Circular No. A-136 (Revised), “Financial Reporting Requirements,” October 27, 2011; OMB
        Memorandum M-11-16, “Issuance of Revised Parts I and II to Appendix C of OMB Circular A-123,”
        April 14, 2011; OMB Memorandum M-11-04, “Increasing Efforts to Recapture Improper Payments by
        Intensifying and Expanding Payment Recapture Audits,” November 16, 2010; and OMB Memorandum
        M-10-13, “Issuance of Part III to OMB Circular A-123, Appendix C,” March 22, 2010.
    10
         OMB Circular No. A-123, “Management’s Responsibility for Internal Control,” Appendix C.



2                                                                                    REPORT NO. IG-12-015
INTRODUCTION



  institute a systematic method of analyzing risk to determine susceptibility. At a
  minimum, agencies should consider the following factors:

      •   whether the program or activity is new to the agency;

      •   the complexity of the program or activity;

      •   the volume of payments made annually;

      •   whether payments or payment eligibility decisions are made outside of the
          agency;

      •   recent major changes in program funding, authorities, practices, or procedures;

      •   the level, experience, and quality of training for personnel responsible for making
          program eligibility determinations;

      •   significant deficiencies cited in audit reports of the agency; and

      •   results from prior improper payment work.

  For each program identified as susceptible, agencies are to use an OMB-approved
  methodology to test a sample of transactions and obtain a statistically valid estimate of
  the annual amount of improper payments. At the conclusion of testing, agencies with
  significant improper payment rates are required to develop and implement a corrective
  action plan that identifies root causes and establishes reduction targets as well as
  accountability for reducing improper payments. Additionally, agencies are required to
  report the estimated annual improper payments and the progress in reducing those
  improper payments in their annual PAR or AFR.

  In addition to analyzing susceptibility to improper payments, IPIA requires agencies to
  conduct payment recapture audits for all programs with $1 million or more in annual
  expenditures. OMB defines a payment recapture audit as a review and analysis of an
  agency or program’s accounting and financial records, supporting documentation, and
  other pertinent information supporting its payments specifically designed to identify
  overpayments. OMB instructs agencies to prioritize payment recapture audits on
  activities that have a high potential for overpayments and recoveries, but allows them to
  exclude payments from programs or activities for which they determine payment
  recapture audits are not a cost-effective means of identifying and recapturing improper
  payments. To exclude payments from the recapture audit requirement, the agency must
  notify OMB as well as the agency’s Inspector General of its decision and underlying
  rationale.

  GAO Review of NASA’s Compliance with IPIA. In 2007, the Government
  Accountability Office (GAO) reviewed NASA’s efforts to comply with IPIA and
  identified several deficiencies. Specifically, GAO found that the Agency had not


REPORT NO. IG-12-015                                                                            3
                                                                                               INTRODUCTION



    developed a systematic process to identify risk and that its risk assessment documentation
    was insufficient to support its conclusion that none of its programs were susceptible to
    significant improper payments. Ultimately, GAO concluded that the Agency had not
    effectively implemented IPIA. 11 In response to the GAO report, NASA centralized its
    IPIA activities in the Quality Assurance Division of its Office of the Chief Financial
    Officer (OCFO) and hired an external firm to assist NASA in developing its initial risk
    assessment methodology. As a result, GAO considered these issues resolved.
    Subsequently, NASA hired two additional external contractors, one to perform the
    Agency’s annual programmatic risk assessment and conduct related improper payment
    testing and reporting (IPIA contractor) and the other to perform payment recapture audits
    (recapture auditor).

    NASA’s FY 2011 IPIA Reporting Process. For the IPIA section of the FY 2011 PAR,
    NASA began the process of identifying its programs and activities by querying its
    financial system, SAP, for all FY 2010 disbursements. NASA provided this information
    to the IPIA contractor who segregated the data by mission, ultimately identifying 132
    programs within seven mission areas. 12 With the Quality Assurance Division’s approval,
    the contractor removed the two programs under the Office of Inspector General (OIG)
    mission area from this list and combined 32 programs into a single program labeled
    Institutions and Management, bringing the list to a total of 99 programs. All programs
    with more than $80 million in disbursements during the fiscal year would be subject to
    further assessment. NASA reported that 34 programs met this threshold.

    The IPIA contractor requested that the program manager for each of the 34 programs
    complete a questionnaire designed to help assess the risk for improper payments within
    that program. In addition, the IPIA contractor considered other program-specific factors
    such as the control environment, amount of disbursements, and the programmatic and
    human capital risks specific to particular programs. Within the risk assessment,
    materiality of the program accounts for 40 percent of the risk rating while all other
    factors constitute the remaining 60 percent. Based on this information, the IPIA
    contractor assigned an overall risk rating to each of the 34 programs and identified 9
    programs as potentially susceptible to significant improper payments. However, after
    considering the results of prior years’ testing, NASA determined that only 7 of these
    programs would be subject to further testing: Constellation Systems, Institutions and
    Management, International Space Station, Mars Exploration, Reimbursable (RMB) –
    Science Mission Directorate Programmatic, Space Communications and Navigation, and
    the Space Shuttle Program.



    11
         GAO, “Improper Payments: Weaknesses in [U.S. Agency for International Development]’s and NASA’s
         Implementation of the Improper Payments Information Act and Recovery Auditing” (GAO-08-77,
         November 2007).
    12
         Aeronautics Research Mission Directorate, Cross Agency Support Programs, Exploration Systems
         Mission Directorate, Institutions and Management, Office of Inspector General, Science Mission
         Directorate, and Space Operations Mission Directorate.



4                                                                                      REPORT NO. IG-12-015
INTRODUCTION



  The IPIA contractor developed the testing sample for each of the seven programs from
  vendor payments, purchase card transactions, and travel expenditures, excluding grant
  payments. Further, all payments made for the operation of the Jet Propulsion Laboratory
  (JPL) were excluded from the IPIA review. The IPIA contractor identified only one
  improper payment in the seven programs. Based on that payment, NASA projected that
  it had made $1.5 million in improper payments in FY 2010. Because this amount was
  below OMB’s threshold for significance, NASA reported in its FY 2011 PAR that it had
  identified no significant improper payments.

  In addition to the testing for improper payments described above, NASA contracted with
  the recapture auditor to perform audits on all fixed-price contract payments. The
  recapture auditor contacted vendors to identify whether their records indicated funds due
  to NASA. In addition, the recapture auditor tested all payments made on fixed-price
  contracts during the fiscal year to identify duplicate payments, overpayments, or
  payments to the wrong vendor. To initiate the audit, NASA provided the recapture
  auditor with a listing of all non-voided invoices for FY 2009, which totaled $12.4 billion.
  The recapture auditor then selected for testing those invoices reflecting payments
  associated with fixed-price contracts, which totaled $4.4 billion. From this subset of
  invoices, the recapture auditor identified 115 potential duplicate payments totaling
  $68.5 million. After further analysis, Agency officials determined that none of these
  payments was actually improper.


Objectives

  Our audit objective was to determine whether NASA was identifying, reporting on, and
  reducing improper payments in accordance with IPIA. Specifically, we reviewed the
  IPIA section of NASA’s FY 2011 PAR and supporting documentation to ensure NASA’s
  methodology and determinations were sound, accurate, and complete. We also reviewed
  internal controls related to the overall objective. See Appendix A for details of the
  audit’s scope and methodology, our review of internal controls, and a list of prior
  coverage.




REPORT NO. IG-12-015                                                                            5
                                                                                                 RESULTS




                       NASA USED FLAWED METHODOLOGY TO IDENTIFY
                             PROGRAMS POTENTIALLY SUSCEPTIBLE TO
                                             IMPROPER PAYMENTS

               The process through which NASA identified programs potentially susceptible to
               improper payments was flawed. Specifically, with NASA’s approval the IPIA
               contractor interpreted and manipulated disbursement data from the Agency’s
               accounting system to identify and group its programs and activities. However, some
               programs and activities were grouped in ways that potentially masked improper
               payments, while others were excluded from the risk assessment process altogether.
               Because NASA did not properly identify all programs and activities, the Agency did
               not conduct program-specific risk assessments as required by IPIA. In addition, we
               are concerned that the Agency’s method for evaluating the level of risk in its
               programs was applied inconsistently across programs and that the Agency’s heavy
               reliance on the IPIA contractor’s judgments may have skewed the risk assessment.
               Lastly, we disagree with NASA’s decision to exclude from the risk assessment
               process payments made to and by the Jet Propulsion Laboratory (JPL).


Defining Programs for Program-Specific Risk Assessment

    To comply with IPIA, agencies must conduct a program-specific risk assessment for each
    program or activity they administer. NASA’s FY 2011 PAR states that the Agency
    completed its improper payment identification and reporting process in compliance with
    OMB Circular A-123, Appendix C. 13 However, NASA did not adhere to OMB guidance
    in developing its methodology for identifying Agency programs or activities.
    Specifically, working with NASA, the IPIA contractor interpreted and manipulated
    disbursement data from the Agency’s accounting system, SAP, which resulted in
    program groupings that potentially masked improper payment rates and other programs
    being excluded from the risk assessment altogether.

    To determine the universe of NASA programs, Agency officials executed a query in SAP
    to identify all FY 2010 disbursements. The IPIA contractor segregated this data by
    mission, initially identifying 132 programs, and then narrowed this list to 99 programs by
    removing two programs associated with the OIG and combining 32 other programs,
    including Information Technology Services, the NASA Shared Services Center, and
    Institutional Construction of Facilities, into a single program labeled Institutions and
    Management. The FY 2010 combined disbursements for these 32 programs was
    $3.7 billion, with 7 meeting NASA’s materiality threshold of $80 million on their own.
    The effect of combining these 32 programs was that none was subject to an individual

    13
         OMB Memorandum M-11-16, “Issuance of Revised Parts I and II to Appendix C of OMB Circular
         A-123,” April 14, 2011.



6                                                                                 REPORT NO. IG-12-015
RESULTS



  assessment of risk. Similarly, NASA grouped the James Webb Space Telescope (JWST),
  Hubble Space Telescope (HST), and Stratospheric Observatory for Infrared Astronomy
  (SOFIA) into one program labeled Cosmic Origins and the Multi-Purpose Crew Vehicle,
  Constellation System, and Space Launch System into another program labeled
  Constellation Systems. OMB guidance advises agencies to avoid grouping programs in
  ways that may mask the rate of improper payments within distinct programs. We believe
  that NASA’s Institutions and Management, Cosmic Origins, and Constellation Systems
  groupings were inconsistent with this directive.

  First, combining programs reduced the volume of testing performed on individual
  programs. When an individual program is selected for testing, the testing sample is
  selected from the entire population of transactions in that program; however, when
  distinct programs are combined the sample is selected from a larger population, thereby
  potentially reducing the number of transactions subject to testing from any particular
  program. Indeed, out of the 32 programs grouped into Institutions and Management with
  $3.7 billion in total disbursements, the transactions selected for testing represented only
  13 programs and $773.8 million in disbursements.

  Second, when programs are combined, a program that might be deemed high risk
  standing alone could be masked within a larger program in which the overall risk of
  improper payments is deemed low. For example, grouping JWST into the Cosmic
  Origins program meant that a project with a total projected cost of $8.8 billion and
  $390 million in FY 2010 disbursements was not individually assessed for risk or tested
  for improper payments. In our view, the JWST, HST, and SOFIA projects each meet
  OMB’s definition of a program. Each project is identified individually in NASA’s
  budget and appropriation documents as a specific line item and each employs its own
  program management. Further, each of these projects would arguably have different
  levels of risk based on the amount of disbursements and the maturity of the project life
  cycle. For example, while JWST significantly exceeded $80 million in disbursements,
  HST and SOFIA had much lower disbursement totals. With regard to project life-cycle
  risk, JWST is in the research and development phase while HST and SOFIA are
  operational. For similar reasons, we believe NASA should have separately assessed for
  risk the Multi-Purpose Crew Vehicle, Constellation System and Space Launch System
  programs rather than combining them all as Constellation Systems under the Exploration
  Systems mission area.

  We also identified programs we believe were inappropriately excluded from NASA’s risk
  assessment. Specifically, we identified 13 sets of programs within SAP that had identical
  or similar naming conventions such as RMB-Aeronautics Research Mission Directorate
  (ARMD) Program Programmatic and RMB-ARMD Programmatic. These programs had
  different program numbers but were both related to the Aeronautics Research Mission
  Directorate. When we examined the disbursements for these programs with OCFO
  budget officials, they determined that 12 of the 13 sets of programs we had identified
  should have been combined. Had NASA combined these sets of programs, three
  additional programs would have exceeded the $80 million materiality threshold and been



REPORT NO. IG-12-015                                                                            7
                                                                                                     RESULTS



    subject to a program-specific risk assessment. For instance, had RMB-ARMD Program
    Programmatic and RMB-ARMD Programmatic been combined, their disbursement total
    would have been $84.9 million. In another example, had NASA’s three separate
    Environmental Compliance Restoration programs been combined, they would have been
    evaluated for risk based on $86.9 million of disbursements. Instead, one of the three,
    with $17.4 million in disbursements, was grouped within Institutions and Management
    and the other two were excluded from the risk assessment altogether. In a separate
    instance, the IPIA contractor identified the Safety and Mission Success program as
    having $198 million in FY 2010 disbursements, but this program was not included in the
    risk assessment.

    Finally, NASA is required to report the basis for any program groupings in its annual
    PAR, but the FY 2011 PAR contained no explanation or description of the Institutions
    and Management program.

    Inconsistent Execution of NASA’s Risk Assessment. NASA’s risk assessment process
    may not be accurately identifying and appropriately measuring risk. Specifically, risk
    may have been inaccurately assessed and assigned to certain programs due to incomplete
    data, a heavy reliance on materiality, and the subjective assignment of risk by the IPIA
    contractor. We believe that these factors increase the potential that risk is not accurately
    identified or appropriately and consistently measured across NASA’s programs and
    activities. If risk is not appropriately assessed, programs may be inappropriately
    excluded from testing and, consequently, improper payments not identified and reported.

    The lack of uniformity in the assignment of risk ratings begins with the process used to
    obtain background information related to NASA’s programs. For each NASA program
    or activity identified as risk susceptible based on the materiality threshold of $80 million,
    the IPIA contractor asked the program manager to complete a questionnaire designed to
    provide further information relating to risk. The IPIA contractor used responses from
    these questionnaires to assess the overall risk factors related to the program and assign a
    risk rating score. The IPIA contractor stated that the level of response and completeness
    of the questionnaires by program managers varied and that in some instances there was a
    lack of “buy-in” or cooperation by program managers. In fact, the IPIA contractor only
    received 14 questionnaires completed by program managers for the 33 programs included
    in the risk assessment. 14 In instances in which the program manager did not return the
    questionnaire, the IPIA contractor completed it using online resources or prior risk
    assessment results. We have concerns about the heavy reliance NASA placed on its IPIA
    contractor, who has less program knowledge than NASA personnel, to assess the level of
    risk in the Agency’s programs.

    As part of the risk assessment process, the IPIA contractor considered such factors as the
    control environment, programmatic risks, materiality of program disbursements, and
    human capital risks, and used this information to assign risk rating scores to each of the
    14
         Although NASA reported in its FY 2011 PAR that 34 programs were included in its IPIA risk
         assessment, we found that only 33 were actually included.



8                                                                                     REPORT NO. IG-12-015
RESULTS



  programs. However, we found inconsistencies in how the IPIA contractor assigned risk
  ratings. We noted instances in which the IPIA contractor rated risk factors for which the
  program manager had provided no information a “1” (low), while in other programs such
  factors were rated a “5” (high). The IPIA contractor stated that this occurred because it
  considered the materiality of the program when evaluating other risk factors and
  therefore, if no other information was provided, one program could be rated differently
  than another program at the IPIA contractor’s discretion. However, materiality is a
  stand-alone factor in NASA’s risk assessment and IPIA states that materiality is only one
  factor in a risk assessment process. By incorporating materiality into the determination
  of other risk factors, the IPIA contractor may be amplifying its affect on a program’s
  overall assessment of risk.


Exclusion of the Jet Propulsion Laboratory

  JPL is a federally funded research and development center (FFRDC) operated for NASA
  by the California Institute of Technology (Caltech). FFRDC’s enable agencies to use
  private sector resources to accomplish tasks that are integral to the mission and operation
  of the sponsoring agency that cannot be met with normal contractor resources. As such,
  FFRDC’s have access to government resources beyond which is common to the normal
  contractual relationship and are expected to operate in the public interest and fully
  disclose their affairs to the sponsoring Agency. According to NASA’s Procurement
  Report for FY 2010, JPL received $1.6 billion in FY 2010 and is the second largest
  recipient of NASA procurement funds after private businesses. 15 However, NASA did
  not include payments made to or by JPL in its IPIA review.

  The Associate Deputy Chief Financial Officer (Associate Deputy CFO) stated that NASA
  did not include JPL because it believes that payments made by NASA to JPL are not at
  risk for improper payments and because payments made by JPL to subcontractors are
  outside IPIA’s scope. Specifically, he stated that NASA has established a line of credit
  for making payments to Caltech, that Caltech draws down funds as needed, and that these
  transactions are made electronically between banks. Based on these factors, NASA
  concluded that the payment stream to JPL would always be accurate. The Associate
  Deputy CFO also stated that IPIA only requires NASA to consider first-line Government
  payments to prime contractors and therefore payments made by JPL to its subcontractors
  are not subject to the statute.

  OMB defines a payment as any payment derived from Federal funds or other Federal
  sources; ultimately reimbursed from Federal funds or resources; or made by a Federal
  agency, a Federal contractor, or a governmental or other organization administering a
  Federal program or activity. This definition includes Federal awards subject to OMB


  15
       The Procurement Report is available online at http://prod.nais.nasa.gov/pub/pub_library/annual2010.pdf
       (accessed March 14, 2012).



REPORT NO. IG-12-015                                                                                            9
                                                                                         RESULTS



     Circular No. A-133, “Audits of Institutions of Higher Education and Other Non-Profits,”
     that are expended by both recipients and sub-recipients.

     Because Caltech administers JPL as a Federal program or activity and JPL’s operation is
     analogous to other NASA Centers, it is our view that both payments NASA makes to
     Caltech and subsequent payments by Caltech to subcontractors meet OMB’s definition of
     a payment. Further, as transactions between banks are not impervious to the risk of
     improper payment, we do not believe that this factor alone is sufficient reason to exclude
     JPL from NASA’s risk assessment. In line with OMB guidance, payments are only
     proper when made for eligible goods and services under the provisions of a contract,
     grant, lease, cooperative agreement, or other funding mechanism. In addition, JPL is
     subject to the Single Audit Act requiring A-133 audits that include reviews of
     disbursements past the primary recipient. Between FYs 2007 and 2010, these A-133
     audits of JPL conducted by an external contractor and the Defense Contract Audit
     Agency (DCAA) identified approximately $18 million in questioned costs. While
     questioned costs are not necessarily improper payments and A-133 audits are not
     specifically designed to identify such payments, these audits highlight weaknesses that
     could lead to improper payments at JPL.

     Based on the questioned costs identified in A-133 audits of JPL, we believe that had the
     disbursements made to and by JPL in FY 2010 been included in the Agency’s IPIA
     review, the Agency may have identified additional improper payments. At a minimum,
     NASA should have formally assessed the risk of improper payments made by and to JPL
     consistent with the way it assessed risk in its other programs.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. We recommended that NASA’s Chief Financial Officer develop a
methodology to identify programs and activities that does not inappropriately mask
improper payments.

     Management’s Response. The CFO partially concurred, stating that she strongly
     believes that NASA’s current methodology does not mask improper payments and
     adequately identifies and categorizes NASA’s programs and activities. She noted that
     NASA’s procurement and payment activities are centralized at NASA Centers and the
     NASA Shared Services Center with a clear segregation of duties that provides a sound
     internal control environment that mitigates the risk of improper payments across the
     entire Agency. She contends that the Agency’s current methodology is cost-effective,
     meets the goals and objectives of IPIA, and complies with the intent of OMB guidance –
     pointing to the results of NASA’s last three improper payment reviews that uncovered
     only five improper payments and to the fact that NASA consistently reports improper
     payment rates below OMB’s significance threshold as support for her contention.
     Nevertheless, she stated that it may be more appropriate for NASA to assess improper


10                                                                         REPORT NO. IG-12-015
RESULTS



  payments by payment type and associated “procure to pay” activities rather than by
  “programs” and that the Agency will consider refining its approach and make a
  determination for execution by FY 2013.

  Evaluation of Management’s Response. Although the CFO strongly believes that the
  Agency’s current methodology meets the goals and objectives of IPIA and complies with
  OMB guidance, our review indicates otherwise. We cited multiple examples in our
  report where improper payments were potentially masked and the Agency did not dispute
  our analysis or address our specific findings. Moreover, the fact that NASA has
  identified relatively few improper payments over the past 3 years means little if, as we
  assert, the Agency is using a methodology that may mask such payments. Similarly,
  NASA already considers the centralized nature of its procurement and payment activities
  in its risk assessment methodology and by solely focusing on the financial control
  environment, risk factors unique to specific programs, such as JWST, may be ignored.

  However, we consider this recommendation to be resolved because the CFO stated that
  NASA will reassess its approach to testing for improper payments. The recommendation
  will be closed once we have determined that the Agency has adopted an approach that
  addresses our concerns.

Recommendation 2. We recommended that NASA’s Chief Financial Officer coordinate
with the Mission Directorates to require that NASA program managers provide updated and
accurate program information to allow for the performance of a comprehensive risk
assessment.

  Management’s Response. The CFO partially concurred, stating that while she agreed
  that better communication could improve the gathering of data from program managers,
  program-specific data is only a minor component of the Agency’s improper payment risk
  assessment. As noted above, the CFO also stated that her office will evaluate an
  alternative method of conducting improper payment testing. As part of this analysis, the
  CFO will consider the extent to which program information impacts the risk factors and
  risk conditions integral to the Agency’s risk assessment methodology. The OCFO will
  analyze the pros and cons of this alternative approach and make a determination for
  execution by FY 2013.

  Evaluation of Management’s Response. Because program-specific data makes up
  60 percent of the current overall risk assessment score, we disagree that the data was a
  minor component of the assessment. In fact, all risk elements except for materiality
  require program-specific input according to NASA’s risk assessment methodology. We
  also noted that the IPIA contractor relied heavily on questionnaires completed by
  program managers to assign a risk rating score to each of the programmatic elements.
  However, based on the CFO’s assertion that her office will consider this issue as part of
  its analysis of possible revisions to its improper payment testing methodology, the
  recommendation is resolved and will be closed when we verify that the Agency’s actions
  address our concern.



REPORT NO. IG-12-015                                                                          11
                                                                                        RESULTS



Recommendation 3. We recommended that NASA’s Chief Financial Officer include JPL
in NASA’s IPIA review and assess the risk of improper payments by and to JPL consistent
with the methodology used for other NASA programs.

     Management’s Response. The CFO partially concurred, stating that NASA will include
     payments made to JPL in NASA’s improper payment program by the end of FY 2012.
     However, the CFO does not concur with including payments made by JPL in NASA’s
     improper payment program. The CFO stated that NASA has never considered JPL a
     “Federal program or activity” that requires administration. According to the CFO, IPIA
     differentiates “administering Federal programs” from status as a “Federal contractor” and
     for the purposes of IPIA, administering a Federal program means managing an ongoing
     process of distributing Federal monies, developing or enforcing regulations, conducting
     inspections, or some other programmatic activity. The CFO contends that Caltech/JPL
     does none of these things.

     Evaluation of Management’s Response. We consider management’s comments
     unresponsive. Therefore, this recommendation will remain unresolved. We disagree that
     there is a sound basis under IPIA for distinguishing between payments made to JPL and
     payments made by JPL to its subcontractors. Under IPIA, payments made to a contractor
     and payments made by a contractor are equally subject to review so long as they are
     made in furtherance of the administration of a Federal program. By virtue of its contract
     to manage JPL, Caltech is one of NASA’s largest contractors and plays a vital role in
     administering NASA’s science and space exploration programs. Accordingly, in our
     view, JPL conducts “programmatic activity” that qualifies even under the CFO’s
     definition of what IPIA covers. We continue to believe that the Agency should assess the
     risk that improper payments are being made from the more than $1 billion of Federal
     money entrusted to JPL each year.




12                                                                        REPORT NO. IG-12-015
RESULTS




                       NASA’S TESTING, ESTIMATING, AND REPORTING
                                           OF IMPROPER PAYMENTS

             NASA improperly excluded grant payments from IPIA testing. In addition, NASA
             identified two programs as susceptible to improper payments but did not test these
             programs for such payments or request a waiver to the requirement that it do so. We
             also identified several errors and omissions in the IPIA section of the PAR that lead
             us to question the rigor of NASA’s oversight and review process and whether
             NASA’s reporting is accurate and complete.


Exclusion of Grants from Testing

  From FY 2006 through FY 2010, NASA awarded approximately $3 billion in grants to
  external entities with approximately $570 million awarded in FY 2010 alone.
  Nevertheless, NASA excluded grants from improper payment testing and reporting. 16 By
  not testing grants, NASA excluded payments in programs known to have internal
  controls weaknesses and did not comply with IPIA requirements. In September 2011, the
  NASA OIG reported that NASA does not have an adequate system of controls in place to
  ensure proper administration and management of its grant program and, as a result, some
  grant funds are not being used for their intended purposes. 17 The OIG also reported that
  NASA did not provide adequate oversight of grantee performance and expenditures and
  awarded unauthorized and unallowable grant supplements contrary to Federal and NASA
  regulations.

  OMB requires any agency with programs or activities susceptible to significant improper
  payments to complete a corrective action plan and directs agencies with risk susceptible
  grant programs to discuss in the PAR what the agency has accomplished in the area of
  funds stewardship past the primary recipient. 18 Although NASA identified $668 million
  in grants within the seven programs identified as susceptible to improper payments, all
  payments associated with these grants were removed prior to transaction testing.

  According to the OCFO’s Quality Assurance Division, NASA did not include grants in
  its IPIA compliance efforts because 2007 testing of first-line grant payments was not
  cost-effective and because there is no clear guidance on how to conduct testing beyond
  the primary recipient. However, OMB calls for agencies to include all grants –
  competitive grant programs, block/formula grant programs, and non-competitive grants

  16
       GAO reported this same deficiency in a 2007 report: “Improper Payments: Weaknesses in [U.S. Agency
       for International Development]’s and NASA’s Implementation of the Improper Payments Information
       Act and Recovery Auditing” (GAO-08-77, November 2007).
  17
       NASA OIG, “NASA’s Grant Administration and Management” (IG-11-026, September 12, 2011).
  18
       OMB A-136 (Revised), October 27, 2011.



REPORT NO. IG-12-015                                                                                        13
                                                                                                           RESULTS



     such as single-source awards – as part of their improper payment review. Additionally,
     OMB’s definition of a “payment” includes disbursements to a Federal grantee or a
     governmental or other organization administering a Federal program or activity. Further,
     the IPIA contractor recommended in its FY 2011 final report that NASA consider
     including grants in future IPIA testing programs.

     We benchmarked with three grant-making Federal agencies to determine how they
     handle grants in their IPIA testing by interviewing personnel from the agencies’ OIGs. 19
     We learned that each of the agencies include grants in their IPIA review and tailor their
     approach specifically to their grant processes. For instance, one agency reconciled
     quarterly financial reports provided by the grantees to supporting documentation while
     another sampled grant transactions and traced disbursements back to supporting
     documentation. The third agency included grants in its IPIA review; however, it did not
     identify any grant programs as high risk and therefore did not perform transaction testing.
     Representatives from two of the three agencies with whom we benchmarked participate
     in an interagency working group with NASA to discuss internal control issues including
     IPIA-related topics.


Evaluation of Improper Payment Testing and Estimating

     Absent a waiver, IPIA requires agencies to estimate the annual amount of improper
     payments for each program and activity identified as susceptible to significant improper
     payments and report the results in the PAR or AFR. However, NASA only reported
     improper payment estimates for seven of the nine programs it identified as susceptible,
     excluding Earth Science Research and Earth Systematic Mission, which respectively had
     $420 million and $770 million in FY 2010 disbursements. The Quality Assurance
     Division told us that this decision was based on the results of previous years’ testing that
     had identified no significant improper payments in these programs.

     OMB guidance states that if a program is determined susceptible to improper payments
     but subsequent transaction testing demonstrates no significant improper payments for a
     minimum of two consecutive years, the agency may request relief from the annual
     reporting requirements for this program or activity. This request must be submitted in
     writing to OMB and include an assertion from the agency’s OIG that it concurs with the
     agency’s request for relief. NASA neither requested nor received such a waiver from
     OMB for its Earth Science Research and Earth Systematic Mission programs.
     Accordingly, it was required to test and report estimates for these two programs.

     Testing of Disbursements. NASA reported in its PAR total disbursements of
     approximately $5.1 billion for the seven programs it identified as susceptible to improper
     payments. However, the total FY 2010 disbursements from these seven programs was

     19
          We interviewed OIG officials for the Department of Justice, the Department of Health and Human
          Services, and the Corporation for National and Community Service.



14                                                                                      REPORT NO. IG-12-015
RESULTS



  actually $13.4 billion. NASA and the IPIA contractor stated that the $5.1 billion
  represents only the disbursements related to contracts, purchase cards, and travel, the
  only types of transactions NASA tested. Of the remaining $8.3 billion (62 percent),
  $1.4 billion was excluded from testing because it related to grants ($668 million) and
  payroll ($765 million). However, as discussed above grants should have been included in
  NASA’s IPIA testing. Furthermore, neither NASA nor the contractor could tell why the
  remaining $6.9 billion was excluded. Therefore, we have no assurance that all eligible
  disbursements made in the seven programs were subject to testing. In response to our
  audit work, the IPIA contractor stated that it would examine the excluded transaction
  types in future years to determine if they should be included in IPIA testing.

  Additionally, we determined that although the 32 programs combined in the Institutions
  and Management program had a total of $3.7 billion in disbursements, NASA selected its
  sample for testing from only $803 million in disbursements. This occurred because the
  IPIA contractor failed to include five programs with a combined disbursement total of
  $2.96 billion in the testing universe. As a result, the five programs that account for
  81 percent of the Institutions and Management program disbursements were not included
  in NASA’s IPIA testing. When questioned, the IPIA contractor’s response was that this
  error did not affect the results. However, we believe that including only 19 percent of the
  disbursements made in a high-risk program may minimize the number of improper
  payments identified.


PAR Reporting

  To comply with IPIA, each agency must publish an annual financial statement for the
  most recent fiscal year and post that report and any accompanying materials on its
  website. Although NASA met these requirements with the publication of the FY 2011
  PAR, we noted several errors that affect the accuracy and completeness of the
  information reported. For instance, the PAR states that NASA’s updated risk assessment
  identified 34 programs that covered $19.1 billion in FY 2010 disbursements. However,
  we determined that the Agency’s risk assessment only included 33 programs with
  $18.9 billion in FY 2010 disbursements. We brought this $200 million discrepancy to the
  attention of the Quality Assurance Division and the IPIA contractor prior to publication
  of the PAR but the information was not corrected.

  We also noted inaccurate results from prior years’ testing in the PAR table labeled
  “NASA Programs Identified as Susceptible to Improper Payments.” The table indicates
  that four programs – Institutions and Management, International Space Station, Mars
  Exploration, and Space Shuttle – were tested in FYs 2009 and 2010 and that the risk after
  testing was determined to be “low.” In reality, these programs were identified as
  susceptible to improper payments in these years but were not tested. In addition,
  Constellation Systems is identified as not having been tested in FY 2008 when in fact it
  was tested, and RMB-Science Mission Directorate Programmatic was identified as tested



REPORT NO. IG-12-015                                                                            15
                                                                                            RESULTS



     in FY 2010 with the results being “low” when in fact the program was not tested or even
     mentioned in the FY 2010 PAR.

     OMB guidance requires that agencies include in their PAR or AFR a table that lists all
     programs or activities they identified as susceptible to significant improper payments, the
     current year and prior years’ improper payment dollars and percentages, designation of
     over- and underpayments, and future year outlay estimates. However, the table in
     NASA’s PAR does not include this information. Additionally, NASA reported that 1,788
     transactions were selected for testing when the supporting documentation indicated that
     1,786 transactions had been selected and only 1,426 transactions had actually been tested.
     The PAR did not note that these transactions had been omitted from testing or explain
     why.

     OMB guidance also requires agencies to provide recapture audit information in five
     different tables to summarize agency recapture efforts. While NASA included these
     tables, the information reported in one table – “Overpayments Recaptured Outside of
     Payment Recapture Audits” – was completed with either a not applicable (N/A) response
     or “$0.” When we asked for the information used to prepare the tables, the Quality
     Assurance Division told us the requirement was new to the PAR, the information was not
     readily available, and that it had had limited time to incorporate the information into the
     report. However, as part of our benchmarking efforts, we noted that other agencies
     completed this table as required. Further, while the information reported in these tables
     indicates to the reader that work was performed and the resulting outcome was either not
     applicable or that no funds were recaptured, based on the Quality Assurance Division’s
     response to our inquiry this was not the case.

     We also identified that the cumulative amount determined not to be collectable from
     previous years in the table labeled “Payment Recapture Audit Reporting” is incorrect by
     several hundred dollars. According to the PAR, $18,367 was not collectable, although
     supporting documentation indicates the correct amount is $19,337. The Quality
     Assurance Division acknowledged this minor error.

     The IPIA contractor provides NASA a draft report for review prior to issuing the final
     report. This report is the basis for the information included in the PAR. We compared
     the draft to the final report and noted the same errors in each and that these errors were
     carried over into the PAR. Accordingly, we question the rigor with which NASA
     reviewed the IPIA contractor’s draft report and supporting documentation.




16                                                                           REPORT NO. IG-12-015
RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

In order to increase opportunities to identify additional improper payments and ensure
accurate reporting, we made the following recommendations to the Chief Financial Officer:

Recommendation 4. Increase the scope of the Agency’s IPIA testing to include grants.

   Management’s Response. The CFO concurred, stating that her office has evaluated its
   improper payment program approach and implementation and will include grants in the
   scope of the improper payments review by the end of FY 2012.

   Evaluation of Management’s Response. Management’s proposed actions are
   responsive; therefore, the recommendation is resolved and will be closed upon
   completion and verification of the proposed actions.

Recommendation 5. Report improper payment estimates for all programs identified as
susceptible to improper payments or request relief from the annual reporting requirement.

   Management’s Response. The CFO concurred and will execute this approach by the
   end of FY 2012.

   Evaluation of Management’s Response. Management’s proposed actions are
   responsive; therefore, the recommendation is resolved and will be closed upon
   completion and verification of the proposed actions.

Recommendation 6. Evaluate the current process for reviewing the IPIA contractor’s
results and develop a process to ensure that information reported in the PAR is correct and
based on appropriate supporting documentation.

   Management’s Response. The CFO concurred and will execute this approach by the
   end of FY 2012.

   Evaluation of Management’s Response. Management’s proposed actions are
   responsive; therefore, the recommendation is resolved and will be closed upon
   completion and verification of the proposed actions.

Recommendation 7. Include all required tables and data in the IPIA section of the PAR.

   Management’s Response. The CFO concurred, stating that even though the required
   tables were included in the FY 2011 PAR, the information in the tables was subject to
   interpretation by the reader. Therefore, the CFO will provide more specificity in the
   tables and provide clarity to the information reported as appropriate. This approach will
   be executed by the end of FY 2012.




REPORT NO. IG-12-015                                                                           17
                                                                                     RESULTS



     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the proposed actions.




18                                                                       REPORT NO. IG-12-015
RESULTS




                                       RECAPTURE AUDIT EFFORTS COULD
                                                         BE IMPROVED

          Although NASA’s recapture audit program met the technical requirements of the
          IPIA, improvements could enhance the Agency’s ability to identify and recapture
          improper payments. Specifically, we determined that NASA contractually limits its
          annual recapture audits to fixed-price contracts, thereby excluding a substantial
          portion of expenditures from testing such as payments made to cost-type contracts,
          grants and cooperative agreements. Accordingly, NASA may be missing an
          opportunity to identify and recover additional improper payments. We also found
          that NASA did not report on improper payments identified through sources other
          than payment recapture audits, such as OIG audits, internal efforts, or vendor
          repayments, and did not prioritize recapture audits to target the Agency’s programs
          or activities known to be high risk.


Scope of NASA’s Recapture Efforts Limited

  In its FY 2011 PAR, NASA reported that no improper payments were identified or
  recovered through recapture audits. We are concerned that NASA is unduly restricting
  the scope of recapture audits and therefore not identifying as many improper payments as
  reasonably possible. Specifically, by limiting recapture audits to fixed-price contract
  payments, only $4.4 billion or 26 percent of the Agency’s total procurement expenditures
  in FY 2009 were subject to audit.

  NASA policy states that all classes of contracts and contract payments should be
  considered for recapture audits. However, OMB guidance allows agencies to exclude
  program and activity payments from recapture audits if the agency determines that such
  audits are not a cost-effective method for identifying and recapturing improper payments.
  NASA determined that recapture audits are not cost-effective for cost-type contracts and
  therefore excluded them from its recapture audit efforts.

  According to OMB guidance, if an agency excludes payments from certain programs and
  activities because of cost concerns, the agency must notify OMB and its Inspector
  General and provide the analysis used in making the determination. While NASA
  notified OMB and the OIG of its intention to exclude cost-type contracts, NASA did not
  specifically report that other types of payments, such as those relating to grants and
  cooperative agreements, would also be excluded or provide the analysis to support these
  exclusions.

  After reviewing NASA’s draft FY 2011 PAR, OMB requested that the Agency provide a
  more detailed explanation in the final document as to why it had excluded cost-type



REPORT NO. IG-12-015                                                                          19
                                                                                            RESULTS



     contracts. To address OMB’s request, NASA stated it excluded these contracts because
     DCAA audits them.

     In 2007, NASA asked DCAA to confirm that it can rely on DCAA audits for recapture
     purposes. In response, a DCAA representative indicated that cost-type contracts are
     subject to continuous audit coverage from award through completion and that payments
     under these contracts are provisionally approved subject to later audit.

     NASA asserts that because DCAA is auditing cost-type contracts and reviews many
     associated invoices before payment, performing a separate recapture audit on these
     contracts would be duplicative and therefore not cost-effective. However, in guidance
     issued in April 2011, OMB specifically differentiates recapture audits from post-award
     audits. Specifically, OMB defines recapture auditing as the review and analysis of an
     agency or program’s accounting and financial records, supporting documentation, and
     other pertinent information supporting its payments that is specifically designed to
     identify overpayments. A recapture audit is not an audit in the traditional sense but rather
     a detective and corrective control activity designed to identify and recapture
     overpayments.

     In contrast, post-award audits examine the accounting and financial records of a payment
     recipient and are normally performed to determine if amounts claimed by the recipient
     are in compliance with the terms of the award or contract and applicable laws and
     regulations. 20 Although post-award audits may also include a review of pertinent records
     and recipients’ systems for identifying and returning any improper payments received,
     DCAA policy specifically states that its audits generally do not cover recapture audit
     activities and that DCAA should normally have no role in most recapture audits. Based
     on OMB’s definition and DCAA guidance, recapture audits differ from post-award audits
     of cost-type contracts. Further, because NASA did not publish the amount of improper
     payments identified by DCAA, we are unable to determine whether DCAA audits are
     identifying duplicate or overpayments or whether the audits themselves are in fact
     duplicative.

     NASA also states in the FY 2011 PAR that the contractual terms of NASA’s cost-type
     contracts provide for audit access only by DCAA and that allowing access by the
     recapture auditor would require contract modifications and likely result in increased
     costs. However, our review of OMB Circular A-133, the Federal Acquisition Regulation
     (FAR), the NASA FAR Supplement, Title 10 of the United States Code, and the Single
     Audit Act determined that while it is generally the Government’s position to avoid
     duplication of effort in auditing, there is no legal impediment to having an outside auditor
     perform payment recapture audits. IPIA allows for payment recapture audits to be
     performed by agency employees, other agencies, non-Federal entities, contractors, or any
     combination thereof.


     20
          DCAA classifies incurred-cost audits as post-award contract audits.



20                                                                              REPORT NO. IG-12-015
RESULTS



  Additionally, IPIA states that the head of the agency shall give priority to the most recent
  payments and to payments made in any program or activity identified as being
  susceptible to significant improper payments. However, NASA does not instruct the
  recapture auditor specifically to target high-risk programs. While some payments made
  by high-risk programs may be associated with fixed-price contracts, because the
  recapture auditor is only reviewing such contracts, other types of payments that fall
  within high-risk programs are not prioritized but rather are excluded all together.

  As noted above, while NASA relies on DCAA for audits of cost-type contracts, the
  Agency did not report the results of these audits in the PAR. In fact, NASA did not
  report on any improper payments identified and recovered through sources other than
  payment recapture audits. OMB guidance states that, as applicable, agencies should also
  report on improper payments identified and recovered through sources other than
  payment recapture audits. Some examples of other sources provided by OMB include
  statistical samples conducted under IPIA; agency post-payment reviews or audits; OIG
  reviews; Single Audit reports; self-reported overpayments; and reports from the public.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

In order to increase opportunities to identify additional improper payments, we made the
following recommendations to the Chief Financial Officer:

Recommendation 8. Analyze and document the feasibility of expanding the scope of the
Agency’s recapture audits beyond fixed-price contracts to include other payments such as
grants and cooperative agreements.

  Management’s Response. The CFO concurred, stating that the Agency will analyze and
  document the feasibility of expanding the scope of the Agency’s recapture audits beyond
  fixed-price contracts to include other payments such as grants and cooperative
  agreements. This action will be completed by the end of FY 2012.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive; therefore, the recommendation is resolved and will be closed upon
  completion and verification of the proposed actions.

Recommendation 9. Reconsider including cost-type contract payments in the Agency’s
recapture audit efforts and document any determinations made.

  Management’s Response. The CFO concurred, stating that the Agency will analyze the
  feasibility of a refined approach and make a determination for execution by FY 2013.
  The CFO noted that NASA’s current approach was developed in collaboration with OMB
  during the early stages of the Agency’s improper payment program.




REPORT NO. IG-12-015                                                                             21
                                                                                     RESULTS



     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the proposed actions.




22                                                                       REPORT NO. IG-12-015
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from September 2011 through April 2012 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  To determine whether NASA was identifying, reporting on, and reducing improper
  payments in accordance with IPIA, as amended by IPERA, we reviewed applicable laws
  and regulations and interviewed OCFO personnel, including the Associate Deputy CFO
  and the Quality Assurance Division’s Director. We also interviewed the responsible
  contractor personnel at the two external firms contracted to conduct the IPIA testing and
  recapture audits on NASA’s behalf. We reviewed the IPIA contractor’s work papers and
  its draft and final reports. We also reviewed the IPIA section of the PAR and supporting
  documentation. Based on our reviews and interviews, we determined whether NASA
  met the requirements of IPIA; evaluated the soundness, accuracy, and completeness of
  the Agency’s reporting of its efforts in the PAR; and evaluated the Agency’s process and
  methodology related to that reporting. Finally, we interviewed representatives at three
  other Federal agencies to benchmark with their IPIA efforts.

  Federal Laws, Regulations, Policies, and Guidance. We reviewed the following in the
  course of our audit work:
      •   Public Law 107-300, Improper Payments Information Act (IPIA) of 2002
      •   Public Law 111-204, Improper Payments Elimination and Recovery Act (IPERA)
          of 2010
      •   Public Law 104-156, Single Audit Act Amendments of 1996
      •   Title 10, United States Code (10 U.S.C.), “Armed Forces,” January 7, 2011
      •   Executive Order 13520, “Reducing Improper Payments,” November 2009
      •   Federal Acquisition Regulation (FAR) and NASA FAR Supplement
      •   OMB Circular No. A-133, “Audits of States, Local Governments, and Non-Profit
          Organizations,” June 27, 2003, and June 26, 2007
      •   OMB Circular No. A-136 (Revised), “Financial Reporting Requirements,”
          September 29, 2010, and October 27, 2011



REPORT NO. IG-12-015                                                                          23
                                                                                   APPENDIX A



        •   OMB Memorandum M-11-16, “Issuance of Revised Parts I and II to Appendix C
            of OMB Circular A-123,” April 14, 2011
        •   OMB Memorandum M-11-04, “Increasing Efforts to Recapture Improper
            Payments by Intensifying and Expanding Payment Recapture Audits,”
            November 16, 2010
        •   OMB Memorandum M-10-13, “Issuance of Part III to OMB Circular A-123,
            Appendix C,” March 22, 2010
        •   NASA Procedural Requirements (NPR) 9010.3, “Financial Management Internal
            Control,” September 30, 2008
        •   NPR 9050.4, “Cash Management and Improper Payments,” September 20, 2008
        •   Defense Contract Audit Agency Memorandum 05-PPD-076(R), “Audit Guidance
            on Recovery Audits,” December 29, 2005

     Use of Computer-Processed Data. We did not review the general and application
     controls surrounding NASA’s financial accounting system (SAP). However, as part of
     NASA’s annual financial statement audit, these controls were subject to testing and
     evaluation. While weaknesses in Privileged User Access Controls and Monitoring of the
     SAP Environment were identified, these deficiencies do not affect the overall
     completeness and reliability of the data we reviewed or the outcome of this audit.


Review of Internal Controls

     We reviewed and evaluated the internal controls associated with NASA’s sampling,
     testing, and reporting of improper payment estimates and the Agency’s efforts to reduce
     and recapture improper payments. We found internal control deficiencies as discussed in
     this report. Our recommendations, if implemented, should correct the weaknesses we
     identified.


Prior Coverage

     During the last 5 years, the NASA OIG and GAO have issued four reports of particular
     relevance to the subject of this report. Unrestricted reports can be accessed over the
     Internet at http://oig.nasa.gov/audits/reports/FY12 (NASA OIG) and http://www.gao.gov
     (GAO).

     NASA Office of Inspector General

     “NASA’s Grant Administration and Management” (IG-11-026, September 12, 2011)




24                                                                       REPORT NO. IG-12-015
APPENDIX A



  Government Accountability Office

  “Improper Payments: Moving Forward with Governmentwide Reduction Strategies”
  (GAO-12-405T, February 7, 2012)

  “Improper Payments: Weaknesses in [U.S. Agency for International Development]’s and
  NASA’s Implementation of the Improper Payments Information Act and Recovery
  Auditing” (GAO-08-77, November 2007)

  “Improper Payments: Agencies’ Efforts to Address Improper Payment and Recovery
  Auditing Requirements Continue” (GAO-07-635T, March 29, 2007)




REPORT NO. IG-12-015                                                                    25
                       APPENDIX B




     MANAGEMENT COMMENTS




26            REPORT NO. IG-12-015
APPENDIX B




REPORT NO. IG-12-015   27
              APPENDIX B




28   REPORT NO. IG-12-015
APPENDIX B




REPORT NO. IG-12-015   29
                                                                               APPENDIX C




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Financial Officer
        Deputy Chief Financial Officer
     Executive Director, NASA Shared Services Center
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Director, Jet Propulsion Laboratory

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Financial Management and Assurance
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




30                                                                    REPORT NO. IG-12-015
Major Contributors to the Report:
   Laura Nicolosi, Director, Mission Support Directorate
   Julia Eggert, Project Manager
   Jason Hensley, Lead Auditor
   Linda Hargrove, Management Analyst
   Scott Riggenbach, Auditor




REPORT NO. IG-12-015                                       31
                                                                                           MAY 1, 2012
                                                                        REPORT No. IG-12-015




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY12/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
